IN THE

SUPREME COURT OF THE UNITED STATES
Michael Ingram El.
Petitioner,
VS.

Joe Crail; et al.,
Respondents,

On Petition for Writ of Mandamus and Writ of Prohibition
to the United States
Court of Appeals for the Ninth District and
The United States District Court for The Eastern District of California
CERTIFICATE OF SERVICE
I, Michael Ingram El, Petitioner, and Consul of Moorish Nation, hereby certify that
on this 14th day of December I have served the PETITION FOR WRIT OF
MANDAMUS, APPENDICES, MOTION TO PROCEED IN FORMA PAUPERIS,
and CERTIFICATE OF COMPLIANCE WITH PAGE LIMITS on counsel of record
for Respondent and the Solicitor General of the United States pursuant 28 U.S.C
ยง2403(a) and California Attorney General.
Jack T. Humes.,
LAW OFFICES OF JACK
HUMES 28720 Canwood
Street, Suite 208
Agoura Hills, California 91301

Office of the Attorney General
1300 "I" Street
Sacramento, CA 95814-2919

Jeffrey B. Walls
Solicitor General of the U. S.
Room 5616, Department of
Justice, 950 Pennsylvania
Ave., N.W.,
Washington, DC 20530-000

Executed on December 14, 2020
I declare under penalty of perjury under the laws of the Constitution for the
United States of America Republic that the foregoing is true and correct.

I Am: /Qrf/C.

y

r

____ _________________

Michael Ingram El, Consul of the Moroccan Empire All-rights reserved - U.C.C. 1-308,

1

